U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




               PUBLIC
              RELEASE


          NATIONAL OCEANIC AND
    ATMOSPHERIC ADMINISTRATION

       Personal Property Balance Requires
 Significant Attention to be Properly Stated
                     in Financial Statements

     Audit Report No. FSC-10875-8-0001 / September 1998




       Office of Audits, Financial Statements Audit Division
September 30, 1998


MEMORANDUM FOR:               Paul F. Roberts
                              Chief Financial Officer and
                                 Chief Administrative Officer
                              National Oceanic and Atmospheric Administration


FROM:                         Johnnie E. Frazier
                              Acting Inspector General

SUBJECT:                      Personal Property Balance Requires Significant
                              Attention to be Properly Stated in the Financial Statements
                              Final Audit Report No. FSC-10875-8-0001

We performed a limited scope audit of NOAA’s capitalized personal property files. The review
entailed an examination of existing property files at NOAA’s headquarters in Silver Spring,
Maryland to determine whether each asset is adequately supported for financial statement
reporting purposes; provide a list to NOAA officials of incomplete files and the documentation
missing in each file reviewed; and provide guidance on compiling property files, as a result of the
exceptions noted during our review of the files.

NOAA has undertaken tremendous efforts to improve its accounting for and reporting of personal
property. However, given the financial reporting requirements of federal entities, we believe that
for NOAA to continue to improve, it is crucial that NOAA recruit a manager with accounting or
financial background to work, on site, as part of the Administrative Services Division, Logistics
Services Branch, Personal Property Team. Currently, NOAA does not have personnel with
accounting or financial knowledge and experience assigned to adequately account for and report
personal property. Based on our audit of NOAA’s personal property files, we recommend that
(1) a full-time accounting or financial manager for the Administrative Services Division, Logistics
Services Branch, Personal Property Team be hired and (2) NOAA issue written policies and
procedures for the adjusted capitalization and bulk purchase thresholds.

The Deputy Chief Financial Officer (CFO)/Chief Administrative Officer for NOAA expressed
general agreement with our recommendations stating that corrective actions will be taken.
Complete comments to our draft report dated August 31, 1998 are attached, and we have
incorporated them accordingly.
U.S. Department of Commerce                                                     September 1998
Office of Inspector General                                  Audit Report No. FSC-10875-8-0001

We would appreciate receiving your audit action plan addressing our recommendations within 60
calendar days, in accordance with the Department Administrative Order 213-5. The plan should
be in the format specified in Exhibit 7 of the DAO. Should you have any questions regarding the
preparation of the audit action plan, please contact Lisa Casias, Deputy Assistant Inspector
General for Financial Statement Audits, on (703) 603-0301.

INTRODUCTION

The National Oceanic and Atmospheric Administration (NOAA) of the U.S. Department of
Commerce is a large decentralized organization with several interrelated missions, most of which
involve stewardship of the oceans and monitoring of the atmosphere. The Chief Financial Officers
Act of 1990, as amended by the Government Management Reform Act of 1994, requires NOAA
to prepare annual audited financial statements.

NOAA received a qualified opinion on its Consolidated Statement of Financial Position as of
September 30, 1997, in part, because NOAA had not maintained a system or a process to
accurately and completely account for all of its capitalizable property and equipment, as required
by accounting standards. As of September 30, 1997, NOAA had a net property, plant, and
equipment (PP&E) balance of $3,234,179,000, which was comprised of 37% personal property,
6% real property, and 57% Construction Work in Progress (CWIP). The auditor’s Report on
Internal Control Structure, Audit Report No. FSC-9865-8-0001, March 1998, cited numerous
material weaknesses relating to personal property.

The Administrative Services Division, Logistics Services Branch, encompasses two teams:
Personal Property and Transportation/Facilities. The Personal Property Team is comprised of
eight FTE and two term appointments. NOAA uses the National Finance Center’s Property
Management Information System (PMIS) as its database for all accountable and capitalized
personal property. The Personal Property Team must ensure that all accountable and capitalized
personal property is accurately recorded in PMIS. Additionally, the team is responsible for
creating a folder for each item of capitalized personal property to ensure that adequate supporting
documentation is maintained. NOAA’s Office of Finance compiles annual financial statements
using spreadsheets which are manually prepared by the Personal Property Team. Both the Office
of Finance and the Administrative Services Division, Logistics Branch, Personal Property Team
are units of NOAA’s Office of Finance and Administration (OFA).

As a result of the weaknesses identified in the auditor’s report mentioned above, NOAA
requested that the OIG perform a review of its capitalized personal property files, which had been
created to support the PP&E balance of $3.2 billion.




                                                 2
U.S. Department of Commerce                                                    September 1998
Office of Inspector General                                 Audit Report No. FSC-10875-8-0001

PURPOSE AND SCOPE OF AUDIT

The purpose of this review was to perform a limited scope audit of NOAA’s capitalized personal
property files. Our fieldwork was conducted in accordance with generally accepted government
auditing standards. As a limited scope audit, we did not evaluate internal controls, test
compliance with significant laws and regulations, or evaluate controls over computer generated
data. The audit was performed under the authority of the Inspector General Act of 1978, as
amended, and Department Organization Order 10-13, dated May 22, 1980. The scope of our
work entailed the following:

1.     Gained an understanding of the operations performed by NOAA’s Office of Finance and
       Administration/Acquisition, Grants and Facilities Services Office (OFA/AGF).

2.     Reviewed existing property files at NOAA’s headquarters in Silver Spring, Maryland to
       determine whether each asset is adequately supported for financial statement reporting
       purposes.

3.     Provided a list to NOAA officials of incomplete files and the documentation missing in
       each file reviewed.

4.     Provided guidance on compiling property files, as a result of the exceptions noted during
       our review of the files.

5.     Followed up on corrections, by NOAA personnel, of the deficiencies noted by the OIG
       and assessed whether the corrections were sufficient.

6.     Ensured that NOAA personnel properly updated the property files, as well as PMIS, for
       the deficiencies we noted.

7.     Provided additional training, as necessary, to NOAA’s personal property staff in
       maintaining the property files.

The scope of our audit was limited to only those personal property folders maintained at the
NOAA headquarters location; however, at the request of the Logistics Services Branch Chief, one
folder from the Central Administrative Services Center was also reviewed. Our review also did
not encompass real property or CWIP. In addition, we only reviewed assets that had already been
recorded in PMIS; therefore, we did not make conclusions regarding the completeness of the
PMIS database. The existence of all capitalized assets will be verified by NOAA during its annual
physical inventory of PP&E. We did not perform any existence testwork and cannot make
conclusions regarding the existence of any assets.


                                                3
U.S. Department of Commerce                                                     September 1998
Office of Inspector General                                  Audit Report No. FSC-10875-8-0001

Furthermore, for all constructed assets, our audit was limited to ensuring that the acquisition
amounts and dates, as documented by the appropriate NOAA program line office, were accurately
recorded in PMIS. We did not review the methodology or accuracy of the procedures performed
by the program line offices to determine the value of constructed personal property.

FINDINGS AND RECOMMENDATIONS

We recognize the significant effort that NOAA has undertaken to improve its accounting for and
reporting of personal property. We also believe that NOAA has begun to take the necessary steps
to effectively track and account for capitalized personal property. However, during our audit, we
noted two areas of concern.

1.     Financial Manager is Needed at NOAA Personal Property Office

PP&E, the largest account on NOAA’s balance sheet, represented 65 percent of total assets as of
September 30, 1997. The next most significant account was Fund Balance with Treasury, which
comprised 29 percent of total assets as of September 30, 1997. With the PP&E balance being so
significant, it is imperative that adequate resources be devoted to the accounting and reporting of
PP&E. However, NOAA does not have personnel with accounting or financial knowledge and
experience assigned on a full-time basis to account for personal property in accordance with the
applicable accounting standards. Current Administrative Services Division, Logistics Services
Branch, Personal Property Team staff are trained in the acquisition of property, maintenance of
documentation for property accountability purposes, and physical accountability of property.

Currently, the Office of Finance provides the Personal Property Team with general requirements
for data needed from the team in order to compile NOAA’s annual financial statements. The
Personal Property Team generates the financial data using information from PMIS. However,
without a full-time accounting or finance manager assigned to this function, NOAA is exposed to
the risk that PP&E will not be accounted for and reported in compliance with all applicable
accounting policies and procedures. NOAA has received disclaimers in each of its past audits in
part due to unsupported property balances. Additionally, NOAA has received material
weaknesses for lack of adequate controls over property.

Having a financial manager with the appropriate expertise to supervise the review of all
capitalized property folders and ensure that assets are properly valued is crucial in obtaining an
unqualified opinion. In addition, by working closely with the NOAA Office of Finance, a financial
manager would ensure that adjustments to PP&E are properly recorded to the general ledger and
PMIS.




                                                 4
U.S. Department of Commerce                                                      September 1998
Office of Inspector General                                   Audit Report No. FSC-10875-8-0001

The need for a financial manager becomes increasingly more evident given the complex
accounting issues that NOAA faces on a daily basis. For example, NOAA encounters
impairments to its PP&E such as damage from natural disasters that may affect the value and
usefulness of the asset. In addition, NOAA has continual upgrades of existing equipment,
develops software with existing staff for internal use, and uses contract and internal staff to
construct assets, such as satellites, over long term periods.

Furthermore, the PMIS property system used by NOAA is not able to properly compile financial
data; therefore, a significant amount of ad hoc reports or manual financial analyses are necessary
to account for and report the data in an accurate manner. The Personal Property Team is in the
process of creating many ad hoc reports using data from PMIS. Until a new property system is
implemented, these reports must provide the necessary data to assist in compiling annual financial
statements. Ensuring that the appropriate reports are available, properly coded, and reviewed is
critical to obtaining the proper balances in compliance with applicable accounting standards, as
well as preparing accurate financial statements. DOC Handbook, Chapter 22, Section 9.0 states
“To ensure accuracy and completeness of reports, closeout procedures shall provide a review of
accounts before final closing of books for the accounting periods.”

Recommendation

We recommend that NOAA’s Chief Financial Officer and Chief Administrative Officer hire a full-
time accounting or financial manager for the Administrative Services Division, Logistics Services
Branch, Personal Property Team. Alternatively, if NOAA cannot hire an accounting or financial
manager, using a contractor or Office of Finance personnel to assist with the compilation of
property data for the financial statements should be considered.

2.     NOAA Should Raise the Capitalization Threshold, Determine a Bulk Purchase
       Threshold, and Issue Written Policies and Procedures

During our limited scope audit, we noted that NOAA was adhering to the $25,000 capitalization
threshold established in the Department of Commerce Accounting Principles and Standards
Handbook. We performed an analysis of NOAA’s capitalization threshold and estimated that the
NOAA Administrative Services Division, Logistics Services Branch, Personal Property Team was
spending approximately 77 percent of its effort to account for less than 6.5 percent of the PP&E
acquisition value. We concluded that a threshold of $200,000, rather than $25,000, would be
more cost-beneficial, yet still conservative, and would result in immaterial reporting differences to
the financial statements. In particular, raising the threshold to $200,000 would have less than a
two percent impact on NOAA’s net PP&E balance. Based on our analysis, NOAA submitted and
the Department approved on June 3, 1998, a waiver request to implement a $200,000
capitalization threshold in lieu of the $25,000 level.


                                                  5
U.S. Department of Commerce                                                    September 1998
Office of Inspector General                                 Audit Report No. FSC-10875-8-0001

We also noted that NOAA did not have a specific bulk purchase policy to capitalize significant
acquisitions of property and equipment items individually costing less than the capitalization
threshold. We performed an analysis of personal property records in the PMIS database to assist
NOAA in determining a reasonable threshold. Using the results of our analysis, NOAA
established a bulk purchase threshold of $1,000,000. We believe that this threshold provides a
conservative approach and will ensure that any significant bulk purchases are capitalized.

The increase in the capitalization threshold, as well as the establishment of a bulk purchase
threshold, are in accordance with the Statement of Federal Financial Accounting Standards No. 6,
Accounting for Property, Plant and Equipment. Specifically, paragraph 149 states,

       “Each entity would establish its own threshold as well as guidance on applying the
       threshold to bulk purchases... permitting management discretion in establishing
       capitalization policies that will lead to a more cost-effective application of
       accounting standards.”

It is essential that adequate written policies and procedures be developed detailing the adjusted
thresholds and their application. Inconsistent application of these new thresholds could result in
inaccurate capitalized property balances leading to a qualified or disclaimed opinion and future
material weaknesses. Procedures should include steps to periodically monitor the adequacy of
thresholds and allow for adjustments based on the nature and amount of property and equipment
purchases. This will help ensure the reasonableness of the thresholds for financial statement
reporting purposes. Distribution of these new policies and procedures to employees and training
on their application will allow for consistent implementation.

Recommendation

We recommend that NOAA’s Chief Financial Officer and Chief Administrative Officer ensure that
NOAA issue written policies and procedures for the adjusted capitalization and bulk purchase
thresholds. Appropriate training on their application should be provided.

DEPUTY CHIEF FINANCIAL OFFICER/CHIEF ADMINISTRATIVE OFFICER
RESPONSE AND OIG COMMENTS

In a September 29, 1998 memorandum (see attached), the Deputy Chief Financial Officer/Chief
Administrative Officer for the National Oceanic and Atmospheric Administration (NOAA)
formally responded to our draft report dated August 31, 1998. The response stated that there
was a general agreement with the observations and recommendations in our draft report and that
there is a plan to implement them.



                                                6
U.S. Department of Commerce                                                   September 1998
Office of Inspector General                                Audit Report No. FSC-10875-8-0001

The Deputy CFO/Chief Administrative Officer’s response requested that we make minor
modifications to the report. We have summarized the informal request for modifications to our
report as follows:

The response stated the Administrative Services Division, Logistics Services Branch,
encompasses two teams: Personal Property and Transportation/Facilities. The Personal Property
Team is comprised of eight FTE and two term appointments. We have incorporated the above
statements in our report. The response requested that our references to “Personal Property
Division” be changed to “Administrative Services Division, Logistics Services Branch, Personal
Property Team.” We have modified our report accordingly.

The response also requested that the statement “we did not review any personal property folders
maintained by the Administrative Service Centers” be changed to “per request by the Logistics
Services Branch Chief, one folder from the Central Administrative Service Center was reviewed.”
We have changed this statement accordingly.




                                               7
